APPENDIX A
Order entered January 10,2020

In The

Court of Appeals;
jfiffl) ©strict of Qfcxa* at ballast
No. 05-19-01067-CV
IN RE BRIAN E. VODICKA, Relator
Original Proceeding from the 14th Judicial District Court
Dallas County, Texas
Trial Court Cause No. DC-15-08135

ORDER
Before Justices Whitehill, Partida-Kipness, and Pedersen, III
Based on the Court’s memorandum opinion of this date, we DENY relator’s September
4,2019 petition for writ of mandamus. We LIFT the stay issued by this Court on September 10,
2019.

/s/

la

ROBBIE PARTIDA-KIPNESS
JUSTICE

APPENDIX B
DENY; Opinion Filed January 10,2020

In The

Court of Appeals
Jfitftlf District of ulexas at Dallas
No. 05-19-01067-CV
IN RE BRIAN E. VODICKA, Relator
Original Proceeding from the 14th Judicial District Court
Dallas County, Texas
Trial Court Cause No. DC-15-08135

MEMORANDUM OPINION
Before Justices Whitehill, Partida-Kipness, and Pedersen, III
Opinion by Justice Partida-Kipness
Before the Court is relator’s September 4, 2019 petition for writ of mandamus seeking
relief with respect to two post-judgment discovery orders. In his petition, relator also challenges
the trial court’s jurisdiction, the denial of his motion to appear at an August 14, 2019 hearing by
telephone, and the denial of his motion for continuance of the August 14 hearing.
To be entitled to mandamus relief, relator must show both that the trial court has clearly
abused its discretion and that relator has no adequate appellate remedy. In re Prudential Ins. Co.
ofAm., 148 S.W.3d 124, 135-36 (Tex. 2004) (orig. proceeding). After reviewing the petition, the
mandamus record, and real party’s response, we conclude relator has not shown he is entitled to
the relief requested. Accordingly, we deny relator’s petition for writ of mandamus. See Tex. R.
App. P. 52.8(a) (the court must deny the petition if the court determines relator is not entitled to
the relief sought).

2a

We lift the stay issued by this Court on September 10,2019.

/Robbie Partida-Kipness/
ROBBIE PARTIDA-KIPNESS
JUSTICE
191067F.P05

3a
-2-

APPENDIX C

CAUSE NO. DC-15-08135
IN THE DISTRICT COURT
MICHAE B. TOBOLOWSKY, As Executor OF THE
Estate of Ira E. Tobolowsky, deceased
Plaintiff / Judgment Creditor,
vs.

DALLAS COUNTY, TEXAS

STEVEN B. AUBREY,
BRIAN E.VODICKA
Appe ndix Q 4™ JUDICIAL DISTRICT

Defendants / Judgment Debtors.

ORDER GRANTING PLAINTIFF’S MOTION FOR RECONSIDERATIONOF THE
COURT’S NOVEMBER 27.2018 ORDER
yp fftyOgftfM/L
On the 14th day of August, 2019, came on to be heard Plaintiff/Judgment-Creditor Michael
B. Tobolowsky, Executor of the Estate of Ira E. Tobolowsky’s (“Plaintiff’) Motion for
Reconsideration of this Court’s November 27, 2018 Order. Plaintiff appeared through counsel,
however, Defendants both failed to appear. The Court, having considered Plaintiffs Motion,
Judgment Debtors’ Response thereto, the evidence, and argument of counsel and pro se parties, is
ofthe opinion that Plaintiffs Motion for Reconsideration of this Court’s November 27,2018 Order
should be Granted and the Court’s November 27, 2018 Order should be modified accordingly. It
is therefore
ORDERED, ADJUDGED, and DECREED that Plaintiffs Motion for Reconsideration of
the Court’s November 27,2018 Order is hereby GRANTED. It is further
ORDERED, ADJUDGED, and DECREED that the portion of this Court’s November 27,
2018 Order, wherein this Court granted Defendants’ Motions to Quash Plaintiffs post-judgment
subpoenas served on Google, LLC, Verizon Wireless Telecom, Inc., T-Mobile USA, Inc., and
Sprint Spectrum, L.P., is hereby rescinded and modified such that Defendants’ Motions to Quash

Order Granting Plaintiffs Motion for Reconsideration

1

4a

Plaintiffs post-judgment subpoenas served on Google, LLC, Verizon Wireless Telecom, Inc., TMobile USA, Inc., and Sprint Spectrum, L.P., are all hereby DENIED. It is further
ORDERED, ADJUDGED, and DECREED that Google, LLC, Verizon Wireless Telecom,
Inc., T-Mobile USA, Inc., and Sprint Spectrum, L.P. shall all comply with the demands contained
in each company’s respective subpoena issued and served by Plaintiff in this case (in or about
September of 2018) and failure to so comply within twenty-one (21) days from the date each third
party receives a copy of this Order shall amount to contempt of court. It is further
ORDERED, ADJUDGED, and DECREED that all relief pending before the Court, which
is not specifically granted herein, is hereby DENIED.

SIGNED ON THIS

DAY OF AUGUST, 2019.

Order Granting Plaintiffs Motion for Reconsideration

2

5a

APPENDIX D

CAUSE NO. DC-15-08135
IN THE DISTRICT COURT
MICHAE B. TOBOLOWSKY, AS EXECUTOR OF THE
Estate of Ira E. Tobolowsky, deceased
Plaintiff / Judgment Creditor,
DALLAS COUNTY, TEXAS

vs.
STEVEN B. AUBREY,
BRIAN E.VODICKA

14th JUDICIAL DISTRICT

Defendants / Judgment Debtors.

ORDER GRANTING PLAINTIFF’S MOTION FOR MODIFICATION OF THE COURT’S
,
NOVEMBER 27.2018 ORDER ifo 70 ~Tt*/Ui P/tePJ K&St&J
On the 14th day of August, 2019, came on to be heard Plaintiff/Judgment-Creditor Michael
B. Tobolowsky, Executor of the Estate of Ira E. Tobolowsky’s (“Plaintiff’) Motion for Modification
of this Court’s November 27,2018 Order. Plaintiff appeared through counsel, however, Defendants
both failed to appear. The Court, having considered Plaintiffs Motion, Judgment Debtors’ Response
thereto, the evidence, and argument of counsel and pro se parties, is of the opinion that Plaintiffs
Motion for Modification of this Court’s November 27,2018 Order should be Granted and the Court’s
November 27, 2018 Order should be modified. It is therefore
ORDERED, ADJUDGED, and DECREED that Plaintiffs Motion for Modification of the
Court’s November 27,2018 Order is hereby GRANTED. It is further
ORDERED, ADJUDGED, and DECREED that the portion of this Court’s November 27,
2018 Order, wherein the Court orders that all “documents obtained by this Order shall be / remain
confidential and not to be released publicly” and that “documents may be viewed by attorneys and
parties only, but not to third parties, subject to further Court Order,” is hereby modified such that
Plaintiff and Plaintiffs attorneys (including all of such attorneys’ employees (whether full time or
part time or volunteer), agents, and representatives) are no longer prohibited from disclosing, and
ORDER on Motion for Modification of Nov. 27,2018 Order
6a

1

instead are hereby permitted to disclose to third parties who are assisting Plaintiff, any documents
obtained from the Court’s November 27,2018 Order so long as such third party first agrees to and
executes a confidentiality agreement, which at a minimum, notifies the third party that the documents
being provided to him/her are confidential and makes clear that the documents must remain
confidential and shall not be disclosed publicly without further Court order.

SIGNED ON THIS c3rP/~~ DAY OF AUGUST, 2019.

(

ORDER on Motion for Modification of Nov. 27,2018 Order

7a

2

APPENDIX E

FILED
20-0042
6/5/2020 12:15 PM
tex-43510139
SUPREME COURT OF TEXAS
BLAKE A. HAWTHORNE, CLERK

THE SUPREME COURT OF TEXAS
Orders Pronounced June 5,2020
ORDERS ON CAUSES
18-1134 W&T OFFSHORE, INC. v. WESLEY FREDIEU; from Harris County; 14th
Court of Appeals District (14-16-00511-CV, 584 SW3d 200, 10-30-18)
The Court affirms the court of appeals'judgment and remands the case to
the trial court.
Justice Blacklock delivered the opinion of the Court, in which Chief
Justice Hecht, Justice Green, Justice Guzman, Justice Devine, Justice
Busby, and Justice Bland joined.
Justice Boyd delivered a dissenting opinion.
(Justice Lehrmann did not participate)
ORDERS ON CASES GRANTED
THE FOLLOWING PETITIONS FOR REVIEW ARE GRANTED:
18-0781 ELECTRIC RELIABILITY COUNCIL OF TEXAS,INC. v. PANDA
POWER GENERATION INFRASTRUCTURE FUND, LLC D/B/A
PANDA POWER FUNDS, ET AL.; from Grayson County; 5th Court of
Appeals District (05-17-00872-CV, 552 SW3d 297, 04-16-18)
~ consolidatedfor oral argument with ~
18-0792 IN RE PANDA POWER INFRASTRUCTURE FUND, LLC, D/B/A
PANDA POWER FUNDS, ET AL.; from Grayson County; 5th Court of
Appeals District (05-17-00872-CV, 552 SW3d 297, 04-16-18)
[Note: The date and time for oral argument are yet to be determined.]

8a

ORDERS ON MOTIONS FOR REHEARING
THE MOTION FOR REHEARING OF THE FOLLOWING PETITION FOR REVIEW
IS GRANTED:
19-0238 CATHAY BANK v. LYDA SWINERTON BUILDERS, INC.; from Harris
County; 14th Court of Appeals District (14-17-00030-CV, 566 SW3d 836,
12-18-18)
denial of petition for review on February 14,2020, withdrawn
petition reinstated
(Justice Busby not participating)
THE MOTIONS FOR REHEARING OF THE FOLLOWING PETITIONS FOR REVIEW
ARE DENIED:
18-0658 BELL HELICOPTER TEXTRON INC. v. BRIAN BURNETT; from
Tarrant County; 2nd Court of Appeals District (02-16-00489-CV, 552 SW3d
901,06-14-18)
(Justice Green not participating)
19-0828 PE SERVICES, LLC, LANDRY ARCHITECTS, AND
FABRISTRUCTURE, INC. v. KERRVILLE FITNESS PROPERTY, LLC,
J. HOUSER CONSTRUCTION, INC., AND JOSH HOUSER D/B/A
HOUSER CONSTRUCTION; from Dallas County; 5th Court of Appeals
District (05-17-01317-CV,
SW3d
, 08-21-19)
19-1063 CHARLIE WILSON, INDIVIDUALLY AND AS ADMINISTRATOR OF
THE ESTATE OF DEBRA WILSON v. DALLAS COUNTY HOSPITAL
DISTRICT D/B/A PARKLAND HEALTH & HOSPITAL SYSTEM; from
Dallas County; 1st Court of Appeals District (05-18-01049-CV,
SW3d
___, 12-03-19)

19-1114 BOW GROVE v. MARION GINE FRANKE AND BRENDA KAY
LYNCH; from Montgomery County; 9th Court of Appeals District (0918-00119-CV,___SW3d___ , 10-17-19)

9a

MISCELLANEOUS
THE FOLLOWING PETITIONS FOR WRIT OF MANDAMUS ARE
DENIED:
19-0636 IN RE RIG QA INTERNATIONAL, INC.; from Harris County; 14th
Court of Appeals District (14-19-00174-CV,___SW3d___ , 05-16-19)
19-1091 IN RE GEORGE WEIMER, BOB ROBERTS, JR., JAMES HUGHES,
DUSTIN NAVARRO, JOSE PEREZ, MORRIS SALZMAN, GORDAN
MTZFELDER, BRIAN SULLIVAN, AND BONNIE TAPP; from
Bandera County; 4th Court of Appeals District (04-19-00750-CV,
SW3d
., 11-13-19)

20-0042 IN RE BRIAN E. VODICKA AND STEVEN B. AUBREY; from Dallas
County; 5th Court of Appeals District (05-19-01067-CV,
01-10-20)
motion for orders denied
stay order issued January 30,2020, lifted
stay order issued February 4,2020, lifted

SW3d

20-0429 IN RE LANCE GOODEN; from Travis County; 14th Court of Appeals
, 05-12-20)
District (14-20-00358-CV,__ SW3d
[Note: The petition is denied. The Court’s stay order issued in In re State of Texas,
20-0401, remains in effect while that petition is pending.]

10a

APPENDIX F

(

FILE COPY
RE: Case No. 20-0042
COA #: 05-19-01067-CV
STYLE: IN RE VODICKA

DATE: 7/31/2020
TC#: DC-15-08135

Today the Supreme Court of Texas denied the motion for
rehearing in the above-referenced petition for writ of
mandamus.

BRIAN E. VODICKA
* DELIVERED VIA E-MAIL *

11a

APPENDIX G

Order entered September 10,2019

In The

Court of gppeate
Jftftfj ©strict of Cexa* at JBaHaa
No. 05-19-01067-CV
IN RE BRIAN E. VODICKA, Relator
Original Proceeding from the 14th Judicial District Court
Dallas County, Texas
Trial Court Cause No. DC-15-08135

ORDER
Before the Court are relator’s September 4, 2019 petition for writ of mandamus and
relator’s motion for emergency stay. We GRANT the motion and STAY the trial court’s August
22, 2019 order granting plaintiffs motion for reconsideration of the court’s November 27, 2018
order as to phone/email records and the trial court’s August 22, 2019 order granting plaintiffs
motion for modification of the court’s November 27, 2018 order as to third party review. This
stay shall remain in effect until further order of this Court. We request that the real parties in
interest and respondent file their responses, if any, to the petition for writ of mandamus by
SEPTEMBER 25,2019.
/s/

12a

BILL WHITEHILL
PRESIDING JUSTICE

FILE COPY

APPENDIX H

IN THE SUPREME COURT OF TEXAS
No. 20-0042
IN RE: BRIAN E. VODICKA
On Petition for Writ of Mandamus
ORDERED:
1.

Relators’ motion for emergency stay, filed January 21, 2020, is granted.

The trial court order, dated August 22, 2019, in Cause No. DC-15-08135, styled Michael
B. Tobolowsky, as Executor of the Estate of Ira E. Tobolowsky v. Steven B. Aubrey and
Brian E. Vodicka, in the 14th District Court of Dallas County, Texas, is stayed pending
further order of this Court.
2.

The real party in interest is requested to respond to relator’s petition for

writ of mandamus on or before February 10,2020.
3.

The petition for writ of mandamus remains pending before this Court.

Done at the City of Austin, this January 30,2020.

Blake A. Hawthorne, Clerk
Supreme Court of Texas
By Claudia Jenks, Chief Deputy Clerk

13a

APPENDIX I

FILE COPY

IN THE SUPREME COURT OF TEXAS
No. 20-0042
IN RE BRIAN E. VODICKA
On Petition for Writ of Mandamus
ORDERED:
1.
granted.

Relators’ second motion for emergency stay, filed February 3, 2020, is
The trial court order, dated August 22, 2019, in Cause No. DC-15-08135,

styled Michael B. Tobolowsky, as Executor of the Estate of Ira E. Tobolowsky v. Steven
B, Aubrey and Brian E. Vodicka, in the 14th District Court of Dallas County, Texas, is
stayed pending further order of this Court.
2.

The petition for writ of mandamus remains pending before this Court.

Done at the City of Austin, this February 04,2020.

Blake A. Hawthorne, Clerk
Supreme Court of Texas
By Claudia Jenks, Chief Deputy Clerk

14a

